           U.S. Department of
                                                                              Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                                           Date:    September 17, 2012
           Single Audit of the Metropolitan Transit Authority
           of Harris County, Texas
           Report No. QC-2012-186
                                                                                         Reply To    JA-20
  From:    Earl C. Hedges                                                                 Attn Of:
           Program Director for Single Audit

    To:    Regional Administrator, FTA, Region VI
           Division Administrator, FHWA, Texas Division Office


           The U. S. Department of Transportation (DOT) is the cognizant Federal single audit agency
           for the Metropolitan Transit Authority of Harris County, Texas (METRO). This report
           presents the results of our Quality Control Review (QCR) of a single audit performed by
           KPMG LLP (KPMG) on METRO for the fiscal year ended September 30, 2011. During this
           period, METRO expended approximately $149 million from DOT grant programs, as
           shown on the attached Schedule of Expenditures of Federal Awards. The DOT programs
           determined to be major by KPMG were: (1) the Federal Transit Cluster, (2) the Federal
           Highway Planning and Construction Cluster, and (3) the Federal Transit Clean Vehicles
           Program.
           The Office of Management and Budget’s (OMB) Circular A-133, “Audits of States, Local
           Governments, and Non-Profit Organizations,” requires the auditor to render an opinion on
           the entity’s financial statements, identify inappropriate use of Federal funds, and report
           internal control and compliance deficiencies that affect Federal grant programs.
           KPMG rendered unqualified opinions on METRO’s financial statements and compliance
           with DOT’s program requirements for the Federal Transit Cluster, the Federal Highway
           Planning and Construction Cluster, and the Federal Transit Clean Vehicles Program. KPMG
           did not question any cost, but made a recommendation to correct a compliance deficiency
           that directly affects the Federal Transit Authority (FTA). 1




           1
               We advised FTA about the deficiency in a separate memorandum. The single audit report issued by KPMG LLP is available
               upon request sent to singleauditrequest@oig.dot.gov.
                                                                                  2


SCOPE

The purpose of our QCR was to determine: (1) whether the audit work complied with
generally accepted Government auditing standards (GAGAS), the Single Audit Act of
1984, as amended (the Act), and OMB Circular A-133; and (2) the extent to which we
can rely on the auditor’s work.

RESULTS

We determined that KPMG’s audit work, was Acceptable, and therefore met the
requirements of GAGAS, the Act, and OMB Circular A-133. We found nothing to indicate
that KPMG’s reports on METRO’s internal control and compliance were inappropriate or
unreliable.

If you have any questions concerning this report, please call me at (410) 962-1729, or
John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                           #

cc: Audit Liaison, FTA, TPM-2
    Audit Liaison, FHWA, HAIM-13
    Audit Liaison, OST, M-1
    Senior Director of Accounting/Controller
